                 U.S. Department of Agriculture

                    Office of Inspector General
                           Great Plains Region




       Audit Report

  Food and Nutrition Service
National School Lunch Program
  Kearney R-I School District
      Kearney, Missouri




                       Report No. 27010-20-KC
                                   March 2004
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL - AUDIT
                                         Great Plains Region
                                    8930 Ward Parkway, Suite 3016
                                   Kansas City, Missouri 64114-3302
                                 TEL: 816.926.7667 FAX: 816.926.7676




DATE:         May 11, 2004

REPLY TO
ATTN OF:      27010-20-KC

SUBJECT:      National School Lunch Program – Kearney R-I School District, Kearney, Missouri

TO:           Darlene Barnes
              Regional Administrator
              Food and Nutrition Service
              1244 Speer Boulevard, Suite 903
              Denver, CO 80204


This report presents the results of the subject audit.           Your written response, dated
March 11, 2004, to the official draft report has been incorporated into the Findings and
Recommendations section of the report, where appropriate. The text of the response is attached
as exhibit F. Your reply expressed agreement with the recommendations; however, we were
unable to reach management decisions on any of the recommendations. The Findings and
Recommendations section of the report explains those actions necessary for us to consider
management decisions on Recommendations Nos. 1 through 14. In general, we will need to be
advised of the specific actions completed, or planned, along with acceptable dates for completing
the proposed actions. In addition, the claim amounts determined to be improper must be
recovered or an accounts receivable established.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken, or planned, and the timeframes for accomplishing final
action. Please note that the regulation requires management decisions to be reached on all
findings and recommendations within 6 months from the date of report issuance, and final action
should be completed within 1 year of management decision.

We appreciate the assistance provided to us during our review.

/s/


DENNIS J. GANNON
Regional Inspector General
  for Audit
Executive Summary
Food and Nutrition Service, National School Lunch Program, Kearney, Missouri
(Audit Report No. 27010-20-KC)

Results in Brief               This report presents the results of our audit of the National School Lunch
                               Program (NSLP),1 as operated by the Kearney R-I District (district). This
                               district served as the local school food authority under an agreement with the
                               Missouri Department of Elementary and Secondary Education, which served
                               as the State agency. The United States Department of Agriculture (USDA)
                               Food and Nutrition Service (FNS) served as the funding agency. For school
                               year 2001/2002 operations, the district claimed about $105,000 in FNS
                               reimbursement and about $6,600 in State agency reimbursement.

                               Our objectives were to evaluate the district’s meal accountability,
                               procurement, accounting systems, and management controls that were
                               designed to provide reasonable assurance as to the accuracy of its meal
                               claims and reimbursement for school years 2001/2002 and 2002/2003.

                               We found that the district lacked internal controls to ensure the number of
                               meals claimed for reimbursement by the district and meals billed by the Food
                               Service Management Company (FSMC) reconciled to the meal counts
                               generated by the district’s automated meal accountability system. In
                               addition, edit checks of the accuracy of meal claims were not performed, as
                               required. We identified overclaims and underclaims of $959 and $447,
                               respectively. Yearend reconciliations of credits for donated commodities
                               were also not performed. The district did not have internal controls over or
                               monitor the FSMC’s compliance with contract terms, and we identified the
                               FSMC’s billings of approximately $5,500 were not supported by the
                               automated meal accountability system. Records supporting the claims for
                               reimbursement were not retained, and the accounting system did not ensure
                               the food service funds were properly accounted for and adequately separated.

                               The district advised that they had initiated corrective actions on conditions
                               we noted. For example, during the 2003/2004 school year, the district school
                               lunch secretaries and the central office personnel began comparing meal
                               counts with the FSMC on a weekly basis. The central office personnel also
                               began tracking the USDA-donated commodities received, monitoring the
                               FSMC use of those commodities, and providing the individual school
                               secretaries with additional training and support to ensure accurate meal
                               counts and records of income.




1
    Also includes the School Breakfast Program (SBP).

USDA/OIG-A/27010-20-KC                                                                                Page i
Recommendations
In Brief           We recommend that FNS instruct the State agency to direct the district to
                   implement various management controls over aspects of its accounting
                   system. For example, we recommend that the district be directed to
                   (1) review the meal accountability system’s meal count numbers to ensure the
                   accuracy and support of meal counts claimed for reimbursement, (2) perform
                   and document edit checks, (3) develop a monitoring process that would
                   ensure the FSMC operated in accordance with the contract/agreement,
                   including a yearend reconciliation, (4) retain all meal accountability records
                   for 3 years, and (5) correct improper reimbursements and improper charges to
                   the food service account.

FNS Response       Although the agency response showed FNS officials concurred with the
                   recommendations, it did not provide sufficient information to reach
                   management decisions on any of the recommendations. We incorporated
                   their comments in the applicable sections of the report and attached a copy of
                   the comments as exhibit F.

OIG Position       The Findings and Recommendations section of the report explains those
                   actions necessary for us to consider management decisions on
                   Recommendations Nos. 1 through 14. In order to reach management
                   decisions, we will need to be advised of the specific actions completed, or
                   planned, along with acceptable timeframes for completing the proposed
                   actions.




USDA/OIG-A/27010-20-KC                                                                    Page ii
Abbreviations Used in This Report

Act                 Richard B. Russell National School Lunch Act
ASBR                Annual Secretary of the Board Report
CFR                 Code of Federal Regulations
District            Kearney R-I School District
FNS                 Food and Nutrition Service
FSMC                Food Service Management Company
NSLP                National School Lunch Program
OIG                 Office of Inspector General
POS                 Point of Service
RFP                 Request for Proposal
SBP                 School Breakfast Program
USDA                United States Department of Agriculture




USDA/OIG-A/27010-20-KC                                             Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Controls Over the NSLP/SBP Meal Counts.................................................................. 3

        Finding 1             Meal Counts Reported to State Agency Were Not Supported ................................ 3
                                 Recommendation No. 1.................................................................................... 5
                                 Recommendation No. 2.................................................................................... 5
                                 Recommendation No. 3.................................................................................... 5
        Finding 2             Meal Accountability Procedures Not Documented................................................. 6
                                 Recommendation No. 4.................................................................................... 7
                                 Recommendation No. 5.................................................................................... 7

    Section 2. Controls Over Procurement Related to the Food Service Management Company .. 8

        Finding 3             The District Did Not Monitor USDA-Donated Commodities ................................ 8
                                   Recommendation No. 6.................................................................................... 9
        Finding 4             District Meals Claimed for Reimbursement Were Not Reconciled to FSMC
                              Billings and the Meal Accountability System’s Reports ........................................ 9
                                   Recommendation No. 7.................................................................................. 10
        Finding 5             District Did Not Have Adequate Controls or Monitoring Procedures Over
                              Rebate Program ..................................................................................................... 10
                                   Recommendation No. 8.................................................................................. 11
        Finding 6             District Did Not Adequately Monitor FSMC Contract Terms.............................. 12
                                   Recommendation No. 9.................................................................................. 12

    Section 3. Accounting Procedures and Controls .......................................................................... 13

        Finding 7             District Did Not Retain Proper Records................................................................ 13
                                  Recommendation No. 10................................................................................ 13
        Finding 8             District’s Accounting System Contained Flaws.................................................... 14
                                  Recommendation No. 11................................................................................ 15
        Finding 9             District Did Not Have Procedures to Prorate Interest Income to the Food
                              Service Fund.......................................................................................................... 16
                                  Recommendation No. 12................................................................................ 16

    Section 4. Competitive Foods Sold During Meal Service Period ................................................ 17


USDA/OIG-A/27010-20-KC                                                                                                                      Page iv
        Finding 10           District Continued to Sell Competitive Foods of Minimal Nutritional Value ...... 17
                                 Recommendation No. 13................................................................................ 17
                                 Recommendation No. 14................................................................................ 18

Scope and Methodology........................................................................................................................ 19

Exhibit A – Summary of Monetary Results ....................................................................................... 21
Exhibit B – District Errors in Accumulating Lunch Meal Counts .................................................. 22
Exhibit C – District’s 2002/2003 Commodity Inventory ................................................................... 25
Exhibit D – Errors in FSMC Billing Lunch Meal Counts ................................................................ 26
Exhibit E – District Control Weaknesses in Overseeing FSMC Contract ...................................... 28
Exhibit F – FNS Reply to Official Draft ............................................................................................. 31




USDA/OIG-A/27010-20-KC                                                                                                                Page v
Background and Objectives
Background               On June 4, 1946, Congress passed the National School Lunch Act,2 now the
                         Richard B. Russell National School Lunch Act (Act), which authorizes
                         Federal assistance to school lunch programs. The intent of the Act, as
                         amended December 29, 2001, is to safeguard the health and well-being of the
                         Nation’s children by providing them with nutritious foods and to encourage
                         the domestic consumption of nutritious agricultural commodities and other
                         foods. This is accomplished by assisting States, through grants-in-aid and
                         other means, in providing an adequate supply of food and facilities for the
                         establishment, maintenance, operation, and expansion of nonprofit school
                         lunch programs.

                         The Act, as amended, authorizes the payment of general and special
                         assistance funds to States, based upon the number and category of lunches
                         served. Section 4 of the Act authorizes general cash assistance payment for
                         all lunches served to children in accordance with the provisions of the
                         National School Lunch Program (NSLP) and additional special cash
                         assistance for lunches served under the NSLP to children determined eligible
                         for free or reduced-price lunches. The States are reimbursed at various rates
                         per lunch, depending on whether the child was served a free, reduced-price,
                         or full-price (paid) lunch. Eligibility of children for free or reduced-price
                         lunches is based upon their family’s household size and income, as listed in
                         the Food and Nutrition Service (FNS) Income Eligibility Guidelines, which
                         are reviewed annually.

                         FNS is the United States Department of Agriculture (USDA) agency
                         responsible for administering the NSLP and School Breakfast
                         Program (SBP). The FNS Mountain Plains Regional Office, located in
                         Denver, Colorado, is responsible for monitoring and overseeing operations in
                         Missouri. The Missouri Department of Elementary and Secondary Education
                         serves as the State agency and is responsible for overseeing program
                         operations within Missouri. The district, located in Kearney, Missouri, is
                         responsible for operating the NSLP in accordance with regulations. Each
                         State agency is required to enter into a written agreement with FNS to
                         administer the NSLP/SBP, and each State agency enters into agreements with
                         school districts to oversee day-to-day operations. The district administered
                         the NSLP/SBP in seven public schools and contracted with a commercial
                         Food Service Management Company (FSMC) to prepare the meals and
                         operate the lunchrooms.

                         The fiscal year 2002 funding for the NSLP was $6 billion for meal
                         reimbursements of approximately 4.7 billion lunches. The Missouri State
                         agency received approximately $104.5 million for the NSLP, $28.7 million
2
    42 U.S. Code 1751.

USDA/OIG-A/27010-20-KC                                                                         Page 1
                   for the SBP, $1 million for the after school snack program, and $400,000 for
                   the special milk program in Federal reimbursements for school year
                   2001/2002. For 2001/2002, Missouri provided State funds of approximately
                   $2.3 million to districts.

                   The general NSLP requirements are codified in Title 7, Code of Federal
                   Regulations (CFR) 210. Requirements for determining eligibility for free and
                   reduced-price meals and free milk are codified in 7 CFR 245. In accordance
                   with 7 CFR 250, USDA also provides donated foods to districts to assist in
                   operating the nonprofit lunch program. The Missouri State agency provides
                   actual commodities to each public school participating in the NSLP/SBP,
                   with the exception of one district. Generally, schools must collect
                   applications on an annual basis from households of enrolled children and
                   make annual determinations of their eligibility for free or reduced-price
                   meals. These schools must also count the number of free, reduced-price, and
                   paid meals served at the point of service (POS) on a daily basis.

Objectives         The objectives of our review were to evaluate controls over the
                   administration of the NSLP/SBP. We evaluated policies and procedures over
                   meal accountability and oversight of program operation. To accomplish this,
                   we evaluated (1) the accuracy of collections and accounting for reimbursed
                   meals, (2) the accounting and use of program funds relating to the district’s
                   procurement of goods and services, including the FSMC, and (3) the
                   accounting for the district’s school food service account.




USDA/OIG-A/27010-20-KC                                                                   Page 2
Findings and Recommendations
Section 1. Controls Over the NSLP/SBP Meal Counts

Finding 1             Meal Counts Reported to State Agency Were Not Supported

                      The district’s internal controls were insufficient to ensure the accuracy of
                      monthly meal counts submitted to the State agency on the Claims for
                      Reimbursement. Errors occurred because school secretaries and the central
                      office secretary did not compare meals claimed to the automated meal count
                      data. Also, personnel at the individual school level and central office were
                      not aware of the need to document daily edit checks designed to prevent
                      overclaims, and they misunderstood the edit checks performed at the State
                      agency level. As a result, the district did not provide adequate documentation
                      to support the meals reported on 10 of the monthly claims, which resulted in
                      overclaims of $959 and underclaims of $447 (see exhibits A and B).

                      Federal regulations3 state the district shall establish internal controls which
                      ensure the accuracy of lunch counts prior to the submission of the monthly
                      Claims for Reimbursement. At a minimum, these internal controls shall
                      include: an onsite review of the lunch counting and claiming system
                      employed by each school within the jurisdiction of the district; comparisons
                      of daily free, reduced-price, and paid lunch counts against data, which will
                      assist in the identification of lunch counts in excess of the number of free,
                      reduced-price, and paid lunches served each day to children eligible for such
                      lunches; and a system for following up on those lunch counts which suggest
                      the likelihood of lunch counting problems.

                      Overclaims and underclaims occurred because neither the school secretaries
                      nor the central office compared meal counts claimed for reimbursement to
                      meal counts shown by the automated meal accountability system.
                      Specifically, the school lunch secretaries manually transferred data from the
                      automated meal accountability systems to a district-created spreadsheet,
                      which in turn was reported for each school to the central office monthly and
                      served as the basis for the meals claimed for reimbursement. The internal
                      district procedure where data entry or clerical errors were made is reflected as
                      part of the overclaims and underclaims (see exhibits A and B). For example,
                      in August 2002 the district claimed only 755 free lunches while the
                      automated meal accountability systems showed 807 free lunches were served.

                      Also, the district did not adequately monitor performance of edit checks
                      designed to ensure the meal counts were not in excess of the number of
                      children currently eligible/approved in each category. For example, we
                      reviewed 3 months of daily participation records and found there were three

3
    7 CFR 210.8(a).

USDA/OIG-A/27010-20-KC                                                                         Page 3
                   schools that did not have an average daily attendance percentage listed on the
                   daily participation record for 1 month each. An official stated the lunch
                   secretary at one school had just started in the position and that the average
                   daily attendance percentage must have been overlooked at the other two
                   schools for the corresponding months.

                   In other cases, the edit checks showed the meal counts exceeded the number
                   of children approved but no justification was documented. For example, in
                   August 2001, Holt Elementary School claimed nine reduced-price meals for
                   1 day, but the edit check record showed there were only seven children
                   eligible. The edit check record did not provide justification for the
                   difference.

                   A district official stated the district office did not know if the school lunch
                   secretaries (1) reviewed the daily participation records for accuracy,
                   (2) compared the number of children currently eligible/approved in each
                   category or the number of students enrolled to the meal counts, or
                   (3) adjusted the number of children currently eligible/approved or number of
                   students enrolled by the average daily attendance factor.

                   In addition, district personnel believed that the State agency’s online program
                   performed the edit checks when the claims for reimbursement were submitted
                   to the State agency. However, a State agency official stated the districts are
                   required to complete and document edit checks on a monthly basis. (The
                   district officials may review the totals of daily meal counts at monthend, but
                   they must ensure each day’s meal counts are correct.) Districts needed to
                   also determine the reason for any differences found during the edit checks.
                   The State agency official stated the Claims for Reimbursement system
                   automatically completed edit checks on the total number of free and reduced-
                   price meals served during the month compared to the number of eligible
                   children the district had approved for the month times the number of days
                   served once the attendance factor is applied. The State agency official
                   stressed the system did not complete edit checks on individual daily meal
                   counts. Another State agency official stated that since the transition to the
                   online Claims for Reimbursement system, the districts might believe the edit
                   checks are performed for them online and may no longer be completing the
                   required daily edit checks.




USDA/OIG-A/27010-20-KC                                                                     Page 4
Recommendation No. 1

                              Instruct the State agency to provide the district with procedures to correct the
                              overclaims and to provide satisfactory evidence the improper payments were
                              recovered where the State agency or district cannot justify reimbursement in
                              those instances where claimed meals exceeded the edit figure.4

                              FNS Response.

                              FNS concurred with Recommendation No. 1.

                              OIG Position.

                              In order to consider management decision, we need to be notified of the
                              proposed dates when the recommended actions to be taken by the district will
                              be completed and provided evidence the improper payments have been
                              corrected.

Recommendation No. 2

                              Instruct the State agency to provide the district with procedures to correct the
                              underclaims.

                              FNS Response.

                              FNS concurred with Recommendation No. 2. However, the State agency
                              may decide not to pay the underclaims, if they wish.

                              OIG Position.

                              In order to consider management decision, we need to be notified of the
                              proposed dates when the recommended actions to be taken by the district will
                              be completed and provided evidence the underclaims have been corrected.

Recommendation No. 3

                              Instruct the State agency to instruct the district to (1) provide training and
                              strengthen control procedures over meal counts reported for reimbursement,
                              (2) ensure the meal reports prepared at the individual schools are reviewed
                              for accuracy and reconciled to the data from the automated meal
                              accountability system, and (3) implement all required edit check procedures
                              for daily meal counts by eligibility category; including the use of correct edit
                              check figures, identification of anomalous meal counts, correction of meal
                              counts, where necessary, full explanation of apparent anomalies that remain,

4
 FNS pointed out that if the State agency or the district can justify reimbursement in those instances where claimed meals
exceeded the edit figure, those meals would not be subject to overclaim.

USDA/OIG-A/27010-20-KC                                                                                            Page 5
                              and documentation of all explanations. Instruct the State agency to verify the
                              district has implemented the cited procedures.

                              FNS Response.

                              FNS concurred with Recommendation No. 3.

                              OIG Position.

                              In order to consider management decision, we need to be notified of the
                              proposed dates when the recommended actions to be taken by the district will
                              be completed.

Finding 2                     Meal Accountability Procedures Not Documented

                              The district had not filed the Methods of Collection and Meal Counting Form
                              (a State agency required form) documenting the meal collection and counting
                              procedures at each POS in the schools. District personnel were not aware of
                              the requirement to complete such a form. As a result, there was reduced
                              assurance the daily lunch counts taken at the POS were limited to eligible meals
                              and correctly reported on the Claims for Reimbursement.

                              Federal regulations5 require an application and agreement between the district
                              and State agency for NSLP/SBP operations. Federal regulations6 require
                              each onsite review to ensure that the school’s claim is based on the counting
                              system authorized by the State agency.

                              According to a State agency official, a copy of the Methods of Collection and
                              Meal Counting Form must be on file at the district, and it had to submit a
                              revised form to the State agency each time an additional POS was determined
                              or when a change occurred to the POS.7 We noted district officials
                              completed the onsite school reviews and indicated the school’s collection
                              procedure in use matched the approved collection procedure, even though
                              there was no approved POS. During our audit, a district official completed
                              the required form for each school.




5
  7 CFR 210.15(a)(2).
6
  7 CFR 210.8(a)(1).
7
  FNS personnel advised that the State agency’s form does not require a school-by-school breakdown for identifying
counting systems, but some districts do add this information to the form. The State agency is not required by Federal
policy to collect this information, and it is not part of what the State agency considers the “agreement,” although it is a
required form. The State agency sent a new copy of the form to each district each year, but a district is not required to
return it if there is no change in the counting systems from what was previously reported.

USDA/OIG-A/27010-20-KC                                                                                            Page 6
Recommendation No. 4

                   Instruct the State agency to require the district to retain a copy of the State
                   agency-mandated form on which the district has stated the type of meal
                   counting and claiming system, or systems currently used in the district, and to
                   submit a new copy of this form whenever the district intends to implement
                   any counting and claiming systems different from the ones stated to be in use
                   for State agency approval.

                   FNS Response.

                   FNS concurred with Recommendation No. 4. However, FNS pointed out the
                   only Federal requirement for prior approval to use a specific meal counting
                   system is if the system proposed does not meet their definition of POS.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the district will
                   be completed.

Recommendation No. 5

                   Instruct the State agency to require the district to verify that each school is in
                   compliance with the approved counting procedures, as part of the annual
                   required onsite review process and, where any unapproved counting system is
                   in use, the district to change the system to conform to one of the approved
                   systems or submit an amendment to the State agency to obtain permissions to
                   operate the claiming system in use.

                   FNS Response.

                   FNS concurred with Recommendation No. 5. However, FNS noted the State
                   agency has stated that they do not consider the Methods of Collection and
                   Meal Counting Form to be a part of their agreement with school food
                   authorities.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the district will
                   be completed.




USDA/OIG-A/27010-20-KC                                                                       Page 7
Section 2.        Controls Over Procurement Related to the Food Service Management
Company

                              The district did not monitor usage of USDA-donated commodities to ensure
                              proper credit was received from the FSMC. Also, the district and FSMC did
                              not use the meal accountability systems as a basis for verifying the billings
                              from the FSMC. This occurred because the district was not aware of specific
                              policies, procedures, or regulations related to the NSLP/SBP concerning the
                              USDA-donated commodities; including the rebate program, proper meal
                              counting, and the FSMC contract. As a result, the FSMC had not accounted
                              for $2,785 in USDA-donated commodities, as required by the contract terms,
                              and the FSMC’s billings to the district were not reconciled to the district’s
                              documentation of meals served. Also, the district turned over $468 in rebate
                              checks from processors of donated commodities to the FSMC.

Finding 3                     The District Did Not Monitor USDA-Donated Commodities

                              The district did not ensure it received proper credit for its USDA-donated
                              commodities, and it had no monitoring procedures to ensure the FSMC
                              followed the contract and contract addendum related to commodities. The
                              district relied solely on the commodity information provided by the FSMC.
                              As a result, there was an unaccounted for difference in commodity credits of
                              $2,785 for the 2002/2003 school year8 (see exhibits A and C).

                              Federal regulations9 require that the contract with the FSMC shall expressly
                              provide that any donated foods received by the recipient agency and made
                              available to the FSMC shall be utilized solely for the purpose of providing
                              benefits for the employing agency's food service operation, and it shall be the
                              responsibility of the recipient agency to demonstrate that the full value of all
                              donated foods is used solely for the benefit of the recipient agency. Federal
                              regulations10 require all federally-donated foods, received by the district and
                              made available to the FSMC, accrue only to the benefit of the district’s
                              nonprofit school food service and are fully utilized therein. Federal
                              regulations11 also state grantees and subgrantees will maintain a contract
                              administration system which ensures that contractors perform in accordance
                              with the terms, conditions, and specifications of their contracts or purchase
                              orders.

                              The district also did not perform yearend reviews of commodity usage and
                              reconciliations to ensure the FSMC’s credits for commodity usage, records of
                              commodity receipts and usage, and inventory records were correct. The
8
   We did not review activities related to credits for donated commodities prior to the 2002/2003 school year because this
issue was reported in Audit Report No. 27601-12-KC, issued in May 2001.
9
  7 CFR 250.12(d).
10
   7 CFR 210.16(a)(6).
11
   7 CFR 3016.36(b)(2).

USDA/OIG-A/27010-20-KC                                                                                            Page 8
                            FSMC performed the inventory independently and gave the district a report.
                            The district did not monitor or have controls in place to ensure the FSMC
                            used donated commodities solely for the purpose of providing benefits to the
                            district and provided proper credit for the donated commodities used.

Recommendation No. 6

                            Instruct the State agency to require the district to develop monitoring
                            procedures and internal controls over FSMC operations to include receipt and
                            use of donated commodities. Specifically, require the district to ensure
                            proper credits have been received from the FSMC and correct any
                            deficiencies in commodity credits to the food service account for the
                            2002/2003 school year. Instruct the State agency to verify the district has
                            implemented the procedures.

                            FNS Response.

                            FNS concurred with Recommendation No. 6.

                            OIG Position.

                            In order to consider management decision, we need to be notified of the
                            proposed dates when the recommended actions to be taken by the district will
                            be completed.

Finding 4                   District Meals Claimed for Reimbursement Were Not Reconciled
                            to FSMC Billings and the Meal Accountability System’s Reports

                            The number of meals billed by the FSMC did not agree to basic meal counts
                            generated by the district’s meal accountability systems. This occurred
                            because the district relied on the FSMC billings and did not attempt to
                            reconcile meals billed to the meal counts from the meal accountability
                            systems. As a result, the FSMC billings for lunch meal counts reported on
                            10 of the monthly billings contained errors and resulted in overclaims of
                            $10,281 and underclaims of $4,822, for a net overbilling of about $5,460 (see
                            exhibits A and D).

                            Federal regulations12 state that grantees and subgrantees will maintain a
                            contract administration system which ensures that contractors perform in
                            accordance with the terms, conditions, and specifications of their contracts or
                            purchase orders.

                            We noted unexplained differences in each of the 10 months reviewed. A
                            district employee advised that the district only met with the FSMC if there

12
     7 CFR 3016.36(b)(2).

USDA/OIG-A/27010-20-KC                                                                              Page 9
                           was a large discrepancy between the district’s meal counts and the FSMC’s
                           counts and had only met with the FSMC two or three times during the
                           2002/2003 school year. The billings by the FSMC for the 2002/2003 school
                           year should be compared with the meal counts that were generated by the
                           district’s automated meal accountability systems, not the meal counts as they
                           were reported to the central office through the inaccurate reporting
                           procedures identified in Finding No. 1, above. Differences in billings and the
                           accurate meal counts should then be resolved.

Recommendation No. 7

                           Instruct the State agency to require the district to implement control
                           procedures to promptly reconcile meal counts, per the automated system with
                           future FSMC billings, review the billings for the 2002/2003 school year in
                           comparison with the corrected meal counts derived from the automated meal
                           accountability systems, resolve any discrepancies found, and recover any
                           erroneous charges for the school lunch fund. Instruct the State agency to
                           verify the district has implemented the reconciliation procedures and
                           corrected the errors.

                           FNS Response.

                           FNS concurred with Recommendation No. 7.

                           OIG Position.

                           In order to consider management decision, we need to be notified of the
                           proposed dates when the recommended actions to be taken by the district will
                           be completed.

Finding 5                  District Did Not Have Adequate                 Controls    or    Monitoring
                           Procedures Over Rebate Program

                           The district did not have adequate controls or monitoring procedures in place
                           for rebate programs from processors of donated commodities. The district
                           personnel were not aware that the rebates should only benefit the school
                           nutrition program. As a result, the district gave rebates of $468 to the FSMC
                           that should have been deposited into the food service account (see exhibit A).

                           Federal regulations13 require all federally-donated foods, received by the
                           district and made available to the FSMC, accrue only to the benefit of the
                           nonprofit school food service and are fully utilized therein. Federal
                           regulations14 require that when applicable end-products are sold to recipient

13
     7 CFR 210.16(a)(6).
14
     7 CFR 250.30(k)(1).

USDA/OIG-A/27010-20-KC                                                                          Page 10
                            agencies, each recipient agency shall submit refund applications to the
                            processor within 30 days from the close of the month in which the sales were
                            made, except that recipient agencies may submit refund applications to a
                            single processor on a Federal fiscal quarterly basis if the total anticipated
                            refund due for all purchases of product from that processor during the quarter
                            is $25 or less. Federal regulations15 state grantees and subgrantees will
                            maintain a contract administration system which ensures that contractors
                            perform in accordance with the terms, conditions, and specifications of their
                            contracts or purchase orders. Federal regulations16 state the contract shall
                            expressly provide that any donated foods, received by the recipient agency
                            and made available to the FSMC, shall be utilized solely for the purpose of
                            providing benefits for the employing agency's food service operation, and it
                            shall be the responsibility of the recipient agency to demonstrate that the full
                            value of all donated foods is used solely for the benefit of the recipient
                            agency.

                            The district received rebate checks from a processor for 2001/2002,
                            totaling $468, which were turned over to the FSMC. The district never
                            recorded the rebate checks in the food service ledger, which weakened the
                            controls over cash receipts. One district official stated the district did not
                            monitor or have controls in place to ensure the FSMC used donated
                            commodities solely for providing benefits to the district.

Recommendation No. 8

                            Instruct the State agency to require the district to implement control
                            procedures for recording all income received, including rebates, in the food
                            service ledger and to verify credit is received for the cited rebate checks.
                            Instruct the State agency to ensure the district has properly implemented the
                            procedures.

                            FNS Response.

                            FNS concurred with Recommendation No. 8.

                            OIG Position.

                            In order to consider management decision, we need to be notified of the
                            proposed dates when the recommended actions to be taken by the district will
                            be completed.




15
     7 CFR 3016.36(b)(2).
16
     7 CFR 250.12(d).

USDA/OIG-A/27010-20-KC                                                                             Page 11
Finding 6                   District Did Not Adequately Monitor FSMC Contract Terms

                            The district did not have a monitoring process and internal controls in place
                            to ensure that the FSMC performed in accordance with the terms, conditions,
                            and specifications of their contract. This occurred because officials relied on
                            the FSMC to adhere to contract terms with little or no routine monitoring by
                            the district. We found that the district had no assurance the FSMC
                            (1) correctly billed for meals served, (2) complied with contract terms related
                            to incurring expenses, as agreed, and (3) maintained current health
                            certifications, insurance certificates, licenses, permits, and training necessary
                            to conduct a food service operation.

                            Federal regulations17 require that grantees and subgrantees will maintain a
                            contract administration system which ensures that contractors perform in
                            accordance with the terms, conditions, and specifications of their contracts or
                            purchase orders.

                            One district official stated the district did not monitor district personnel or the
                            FSMC personnel to ensure they counted meals accurately or correctly used
                            the meal accountability systems. The official stated the district did not have a
                            monitoring process or controls in place to verify if the FSMC was adhering to
                            all terms of their contract. Another district official stated the district only met
                            with the FSMC if there was a large discrepancy between the district meal
                            counts and the FSMC’s counts and had only met with the FSMC two or three
                            times during the 2002/2003 school year. (For additional examples, see
                            exhibit E.)

Recommendation No. 9

                            Instruct the State agency to provide technical assistance to the district for
                            developing a monitoring process and internal controls for ensuring that the
                            FSMC operates in accordance with their contract. Instruct the State agency
                            to verify the district has properly implemented the terms of the contract.

                            FNS Response.

                            FNS concurred with Recommendation No. 9.

                            OIG Position.

                            In order to consider management decision, we need to be notified of the
                            proposed dates when the recommended actions to be taken by the district will
                            be completed.


17
     7 CFR 3016.36(b)(2).

USDA/OIG-A/27010-20-KC                                                                                Page 12
Section 3. Accounting Procedures and Controls

                          The district exhibited several weaknesses in internal controls related to
                          accounting for the food service operation. For example, the district did not
                          back up one of the automated meal accountability systems for an entire year
                          and did not fully use and understand the accounting systems in place. Also,
                          the district did not adequately train and provide oversight of employees to
                          ensure the records of income were accurate. In addition, the district was not
                          aware of FNS requirements concerning prorating interest earned on the
                          general account to the food service fund. As a result, the district was not able
                          to provide support for all meals claimed for reimbursement and did not
                          properly account for income and expense transactions.

                          Federal regulations require that internal controls must maintain effective
                          control and accountability for all grants and subgrants, cash, real and personal
                          property, and other assets. The grantee and subgrantees must adequately
                          safeguard all such property and assure that it is used solely for the authorized
                          purposes.18 Federal regulations19 also state that grantees and subgrantees
                          must maintain records which adequately identify the source and application
                          of funds provided for financially assisted activities. These records must
                          contain information pertaining to grant or subgrant awards and
                          authorizations, obligations, unobligated balances, assets, liabilities, outlays or
                          expenditures, and income.

Finding 7                 District Did Not Retain Proper Records

                          The district had not backed up the Power Lunch system (one of its automated
                          meal accountability systems) from August 2001 to July 2002 because the
                          computer technician did not know a backup was required. As a result, data
                          supporting meals claimed for reimbursement was not available for analysis.

                          Federal regulations20 state records shall be retained for a period of 3 years
                          after the date of the final Claims for Reimbursement for the fiscal year to
                          which they pertain.

                          An official stated the district did not have Power Lunch meal accountability
                          data from August 2001 to July 2002.

Recommendation No. 10

                          Instruct the State agency to direct the district to implement control procedures
                          for retaining all meal accountability records, including appropriate electronic

18
   7 CFR 3016.20(b)(3).
19
   7 CFR 3016.20(b)(2).
20
   7 CFR 210.9(b)(17).

USDA/OIG-A/27010-20-KC                                                                             Page 13
                            or hard copy records from automated meal accountability systems for 3 years,
                            and ensure the district has implemented the procedures.

                            FNS Response.

                            FNS concurred with Recommendation No. 10.

                            OIG Position.

                            In order to consider management decision, we need to be notified of the
                            proposed dates when the recommended actions to be taken by the district will
                            be completed.

Finding 8                   District’s Accounting System Contained Flaws

                            The district’s accounting system was not adequate to ensure the food service
                            funds were properly accounted for and controlled. District officials did not
                            fully understand the accounting system in place, did not reconcile the Annual
                            Secretary of the Board Report (ASBR) amounts to the expenditure ledger to
                            ensure financial information was correct, and miscoded an expense to the
                            food service account. As a result, the district improperly reported revenues
                            and expenditures to the State agency.

                            State agency guidelines21 state sales to pupils, sales to adults, sales of extra
                            milk, and a la carte sales must be separated by codes. In addition, State
                            agency procedures22 provide that Account 5151, Sales to Pupils, is the
                            amount received from pupils for the sale of meals served under the
                            NSLP/SBP. State agency procedures23 provide that Account 2562, Food
                            Preparation and Dispensing Services, are those activities concerned with
                            preparing and serving regular and incidental meals, lunches, or snacks to
                            pupils and staff in a school or local education agency. It includes cooking,
                            operating kitchen equipment, preparing food, serving food, cleaning dishes,
                            storing dishes, kitchen equipment, and cafeteria furniture.              Federal
                            regulations24 state that expenditures of nonprofit school food service revenues
                            shall be in accordance with the financial management system established by
                            the State agency.

                            •   The district improperly combined pupil sales, adult sales, a la carte sales,
                                and extra milk sales under the “sales to adults” code in the revenue
                                ledgers and on the ASBR. The school lunch secretaries were improperly
                                combining the records of income at individual schools because they did
                                not receive sufficient training on the procedures necessary to complete
21
   Missouri Financial Accounting Manual, Procedure No. CDE-405.
22
   Missouri Financial Accounting Manual, Procedure No. CDE-405.
23
   Missouri Financial Accounting Manual, Procedure No. CDE-406.
24
   7 CFR 210.14(a).

USDA/OIG-A/27010-20-KC                                                                             Page 14
                         the records of income. Also, officials were not monitoring the records of
                         income to ensure accuracy of school lunch revenue accounts.

                   •     The 2001/2002 food service expenses were accounted for in the
                         expenditure ledger as $748,535, while the ASBR showed $753,535. An
                         official could not fully justify the reason for the $5,000 difference.

                   •     We found the district accounted for the 2001/2002 lunch and summer
                         school refunds of $917 under the food service supplies expense account,
                         instead of as a reduction to the food service revenues account. State
                         agency officials stated the lunch refunds should have been accounted for
                         as an adjustment to the sales to pupils account to offset the revenue
                         originally recorded.

                   •     The district paid an invoice of $149.85 during June 2002 for concrete
                         remesh, which was incorrectly charged as an expense to the food service
                         account. The official who coded the invoice stated the transaction should
                         have been expensed to a district maintenance account, not the food
                         service account.

Recommendation No. 11

                   Instruct the State agency to provide technical assistance to the district on
                   requirements and actions to be taken to correct the cited incorrect reporting of
                   revenue and expenditures. Instruct the State agency to instruct the district to
                   develop procedures for strengthening internal controls over operations of the
                   food service account by (1) providing proper training on use of the
                   accounting system, (2) reconciling the ASBR and ledgers prior to submission
                   to the State agency, and (3) correcting the improper charge to the food
                   service account. Instruct the State agency to verify the district has
                   implemented the procedures.

                   FNS Response.

                   FNS concurred with Recommendation No. 11.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the district will
                   be completed.




USDA/OIG-A/27010-20-KC                                                                    Page 15
Finding 9           District Did Not Have Procedures to Prorate Interest Income to
                    the Food Service Fund

                    The district had no procedures to credit the school food service account with
                    a prorated share of interest earned from the general fund and investments.
                    Officials said they were not aware of any regulations requiring interest to be
                    prorated to the food service fund. Therefore, the district did not receive an
                    estimated $7,450 in prorated interest from the general fund.

                    The Federal regulation’s definition of revenue25 shows that a prorated share
                    of earnings from investments should be credited to the school food services
                    account.

                    The closing cash balance for the school food service fund for 2001/2002 was
                    $96,251. The general fund annual interest yields ranged from 2.62 percent to
                    4.84 percent, and the capital outlay fund annual interest yields ranged from
                    3.18 percent to 4.84 percent for 2001/2002. Officials informed us the general
                    fund supplemented the food service fund throughout the school year and
                    noted the food service fund could have actually been negative at the
                    beginning of the school year because of food costs and various other costs.
                    Based on this information, we did not recommend the district refund monies
                    to the food service account.

Recommendation No. 12

                    Instruct the State agency to direct the district to develop control procedures
                    for prorating future interest earnings on food service funds to the food service
                    account and verify the district has implemented the procedures.

                    FNS Response.

                    FNS concurred with Recommendation No. 12.

                    OIG Position.

                    In order to consider management decision, we need to be notified of the
                    proposed dates when the recommended actions to be taken by the district will
                    be completed.




25
     7 CFR 210.2.

USDA/OIG-A/27010-20-KC                                                                     Page 16
Section 4. Competitive Foods Sold During Meal Service Period

Finding 10                    District Continued to Sell Competitive Foods of Minimal
                              Nutritional Value

                              We observed a vending machine at the high school containing competitive
                              foods that was used by students during meal service periods. The district had
                              not completely followed corrective action instructions issued by the State
                              agency after its April 1999 review. According to district officials, they did
                              not know the 1999 deficiency related to prohibited food sales (soft drinks)
                              also included the items in a vending machine currently in the food service
                              area. As a result, the district continued to sell prohibited foods of minimal
                              nutritional value to students in the food service area.

                              Federal regulations26 prohibit the sale of foods of minimal nutritional value in
                              the food service areas during the lunch meal periods. Such foods of minimal
                              nutritional value include27 chewing gum, hard candy, and licorice.

                              We noted that a vending machine located in the program food service area of
                              the high school was available to students during the meal service period. The
                              corrective action documentation for the earlier State agency review showed
                              soda machines were relocated, as per conversation with State agency and
                              district, to the location discussed. However, we observed foods of minimal
                              nutritional value, such as licorice, chewing gun, and hard candy, in the
                              remaining vending machine.

Recommendation No. 13

                              Instruct the State agency to direct the district to discontinue selling foods of
                              minimal nutritional value in competition with the NSLP/SBP in the program
                              food service area during the meal serving periods or relocate the vending
                              machines from the program food service area.

                              FNS Response.

                              FNS concurred with Recommendation No. 13.

                              OIG Position.

                              In order to consider management decision, we need to be notified of the
                              proposed dates when the recommended actions to be taken by the district will
                              be completed.


26
     7 CFR 210.11(b).
27
     7 CFR 210, Appendix B.

USDA/OIG-A/27010-20-KC                                                                               Page 17
Recommendation No. 14

                   Instruct the State agency to provide the district with guidance that explains
                   what foods have minimal nutritional value and what foods are acceptable to
                   be sold during the meal periods. Instruct the State agency to verify the
                   district has implemented the procedures.

                   FNS Response.

                   FNS concurred with Recommendation No. 14.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the district will
                   be completed.




USDA/OIG-A/27010-20-KC                                                                  Page 18
Scope and Methodology
                   Our review primarily covered NSLP/SBP operations July 1, 2001, to
                   May 31, 2003, concentrating on operations since July 1, 2002. However,
                   records for other periods were reviewed, as deemed necessary. We
                   performed audit work at the FNS Regional office in Denver, Colorado, and
                   the school district in Kearney, Missouri. We selected Kearney R-I School
                   District based on its location and because it used an FSMC. Fieldwork was
                   performed during the period May through July 2003.

                   In 2001/2002 and 2002/2003, there were four elementary schools, one
                   intermediate school, one middle school, and one high school. We reviewed
                   NSLP/SBP claims of all seven schools and made meal observations at two
                   elementary schools and the high school. Our audit was performed in
                   accordance with Government Auditing Standards.

                   To accomplish our review objectives, we reviewed FNS, State agency, and
                   district regulations, policies, procedures, manuals, and instructions governing
                   NSLP/SBP operations. We also reviewed the State agency’s most recent
                   administrative review of the district’s NSLP/SBP operations and the
                   corrective actions taken in response to the administrative review findings and
                   recommendations. The following audit procedures were also performed:

                   •     Interviewed officials from the State agency, district, and FSMC in order
                         to obtain an overview of their method of operation for the NSLP/SBP;

                   •     Evaluated the district’s procedures used to gather and consolidate
                         monthly meal claims and whether reports were verified for accuracy;

                   •     Evaluated edit check controls used to assure the reasonableness of claims
                         for reimbursement when daily meal counts, by category, exceeded
                         average daily attendance;

                   •     Reviewed the district’s accounting system, which included a review of
                         program funds and interest on those funds;

                   •     Analyzed the monitoring efforts of the district through a review of the
                         onsite accountability reviews conducted during 2001/2002 and
                         2002/2003;

                   •     Reviewed the district’s procedures for issuing a Request for Proposal
                         (RFP)/contract with the FSMC to operate the nonprofit food service;

                   •     Reviewed the most recent RFP/contract with the FSMC; and


USDA/OIG-A/27010-20-KC                                                                    Page 19
                   •     Compared the number of meals claimed (for each category) for
                         reimbursement to the number of meals billed by the FSMC on its monthly
                         invoices.




USDA/OIG-A/27010-20-KC                                                                 Page 20
Exhibit A – Summary of Monetary Results
                                                                       Exhibit A – Page 1 of 1


Finding No.               Description           Amount      Category
              District Overclaimed the
     1        Accumulated Meal Counts                $959 1/
              District Underclaimed the
     1        Accumulated Meal Counts                $447 2/
              FSMC Did Not Properly Account
              for the Value of USDA-Donated
     3        Commodities Used                      $2,785 3/
              FSMC Overbilled the Accumulated
     4        Lunches (Net)                         $5,459 3/
              FSMC Improperly Received
              Rebate Checks for Donated
     5        Commodities                            $468 3/
              School Lunch Funds Improperly
     8        Charged for Maintenance Expense        $150 3/

1/ Questioned Costs, Recovery Recommended
2/ Underclaim
3/ Funds To Be Put To Better Use




USDA/OIG-A/27010-20-KC                                                              Page 21
Exhibit B – District Errors in Accumulating Lunch Meal Counts
                                                                                    Exhibit B – Page 1 of 3

                     Paid      Free    Reduced Total Underclaim   Total Overclaim
August 2002
District Total     11,685      755        314
Per Audit          11,607      807        348
Difference             78       -52        -34
Rate                $0.20     $2.14      $1.74
Total              $15.60 ($111.28)    ($59.16)       ($170.44)           $15.60


                     Paid      Free    Reduced Total Underclaim   Total Overclaim
September 2002
District Total     27,406     2,170       870
Per Audit          27,025     2,192       850
Difference            381       -22         20
Rate                $0.20     $2.14      $1.74
Total              $76.20   ($47.08)    $34.80         ($47.08)          $111.00


                     Paid      Free    Reduced Total Underclaim   Total Overclaim
October 2002
District Total     30,766     2,302       851
Per Audit          29,243     2,239       797
Difference          1,523        63         54
Rate                $0.20     $2.14      $1.74
Total             $304.60   $134.82     $93.96            $0.00          $533.38


                     Paid      Free    Reduced Total Underclaim   Total Overclaim
November 2002
District Total    22,627      1,680       664
Per Audit         22,629      1,695       647
Difference            -2        -15         17
Rate               $0.20      $2.14      $1.74
Total             ($0.40)   ($32.10)    $29.58         ($32.50)           $29.58




USDA/OIG-A/27010-20-KC                                                                          Page 22
Exhibit B – District Errors in Accumulating Lunch Meal Counts
                                                                                   Exhibit B – Page 2 of 3

                    Paid      Free    Reduced Total Underclaim   Total Overclaim
December 2002
District Total    20,860     1,527       597
Per Audit         20,713     1,514       579
Difference           147        13         18
Rate               $0.20     $2.14      $1.74
Total             $29.40    $27.82     $31.32            $0.00           $88.54


                    Paid      Free    Reduced Total Underclaim   Total Overclaim
January 2003
District Total    20,998     1,559       614
Per Audit         20,849     1,583       592
Difference           149       -24         22
Rate               $0.20     $2.14      $1.74
Total             $29.80   ($51.36)    $38.28         ($51.36)           $68.08


                    Paid      Free    Reduced Total Underclaim   Total Overclaim
February 2003
District Total    25,764     1,922       742
Per Audit         25,759     1,944       724
Difference             5       -22         18
Rate               $0.20     $2.14      $1.74
Total              $1.00   ($47.08)    $31.32         ($47.08)           $32.32


                    Paid      Free    Reduced Total Underclaim   Total Overclaim
March 2003
District Total    25,204     1,829       720
Per Audit         25,200     1,847       702
Difference             4       -18         18
Rate               $0.20     $2.14      $1.74
Total              $0.80   ($38.52)    $31.32         ($38.52)           $32.12




USDA/OIG-A/27010-20-KC                                                                         Page 23
Exhibit B – District Errors in Accumulating Lunch Meal Counts
                                                                                   Exhibit B – Page 3 of 3

                    Paid      Free    Reduced Total Underclaim   Total Overclaim
April 2003
District Total    27,703     1,988       787
Per Audit         27,679     2,016       763
Difference            24       -28         24
Rate               $0.20     $2.14      $1.74
Total              $4.80   ($59.92)    $41.76         ($59.92)           $46.56


                    Paid      Free    Reduced Total Underclaim   Total Overclaim
May 2003
District Total    25,393     1,717       695
Per Audit         25,385     1,717       695
Difference             8         0          0
Rate               $0.20     $2.14      $1.74
Total              $1.60     $0.00      $0.00            $0.00            $1.60


TOTAL LUNCH OVERCLAIM                                                   $958.78

TOTAL LUNCH UNDERCLAIM                               ($446.90)




USDA/OIG-A/27010-20-KC                                                                         Page 24
Exhibit C – District’s 2002/2003 Commodity Inventory
                                                                                            Exhibit C – Page 1 of 1


                 Credited Commodities Reconciliation for 2002/2003
Beginning Inventory per FSMC                                                $12,270
Add 2002/2003 Commodities Donated per State agency                          $66,734
Commodities Available for Use                                               $79,004
Less Credited USDA-Donated Commodities to District28                        $47,708
Commodities to be Accounted for per Audit                                   $31,296
Less Ending Inventory per FSMC                                              $28,511
Unaccounted for USDA-Donated Commodities                                     $2,785

Note: The 2002/2003 beginning inventory does not take into account inventory used during June 2002
for summer school.




28
  The FSMC credited the billings for $49,473 for commodities used. However, the FSMC later billed the district for
$1,766 to reduce the net credit for commodities ($49,473.44-$1,765.73=$47,708 rounded).

USDA/OIG-A/27010-20-KC                                                                                   Page 25
Exhibit D – Errors in FSMC Billing Lunch Meal Counts
                                                       Exhibit D – Page 1 of 2
                    Student     Adult       Total
August 2002
FSMC Invoice        $22,667    $1,299     $23,966
Per Audit           $22,461    $1,088     $23,549
Difference            $206      $211         $417
Total Overclaim                              $417

                    Student     Adult       Total
September 2002
FSMC Invoice       $50,697     $3,867    $54,564
Per Audit          $52,918     $3,832     $56,750
Difference         ( $2,221)      $35    ( $2,186)
Total Underclaim                         ( $2,186)

                    Student     Adult       Total
October 2002
FSMC Invoice        $64,383    $4,601     $68,984
Per Audit           $56,811    $4,184     $60,995
Difference           $7,572     $417       $7,989
Total Overclaim                            $7,989

                    Student     Adult       Total
November 2002
FSMC Invoice       $41,543     $3,066    $44,609
Per Audit          $43,949     $3,296    $47,245
Difference         ($2,406)     ($230)   ($2,636)
Total Underclaim                         ($2,636)

                    Student     Adult       Total
December 2002
FSMC Invoice        $40,515    $2,959     $43,474
Per Audit           $40,139    $2,952     $43,091
Difference            $376         $7        $383
Total Overclaim                              $383

                    Student     Adult       Total
January 2003
FSMC Invoice        $40,735    $2,865     $43,600
Per Audit           $40,522    $2,885     $43,407
Difference            $213       ($20)       $193
Total Overclaim                              $193




USDA/OIG-A/27010-20-KC                                             Page 26
Exhibit D – Errors in FSMC Billing Lunch Meal Counts
                                                       Exhibit D – Page 2 of 2
                   Student    Adult      Total
February 2003
FSMC Invoice      $50,153    $3,587    $53,740
Per Audit         $50,032    $3,553    $53,585
Difference           $121       $34       $155
Total Overclaim                           $155

                   Student    Adult      Total
March 2003
FSMC Invoice      $48,893    $3,395    $52,288
Per Audit         $48,838    $3,414    $52,252
Difference            $55      ($19)       $36
Total Overclaim                            $36

                   Student    Adult      Total
April 2003
FSMC Invoice      $53,703    $3,930    $57,633
Per Audit         $53,606    $3,450    $57,056
Difference            $97      $480       $577
Total Overclaim                           $577

                   Student    Adult      Total
May 2003
FSMC Invoice      $49,569    $3,304    $52,873
Per Audit         $48,923    $3,420    $52,343
Difference          $646      ($116)      $530
Total Overclaim                           $530


TOTAL LUNCH OVERBILLED       $10,281

TOTAL LUNCH UNDERBILLED      $4,822

NET LUNCH OVERBILLED         $5,459




USDA/OIG-A/27010-20-KC                                              Page 27
Exhibit E – District Control Weaknesses in Overseeing FSMC Contract
                                                                                      Exhibit E – Page 1 of 3


     CONTRACT PROVISIONS                            DISTRICT CONTROL WEAKNESSES

District shall ensure that the Company      A district official stated the district did not monitor
supplies meals that meet all requirements   nutrient equivalents. The official stated the district
of the NSLP/SBP and other requirements      assumes the State auditors will do that during their
by the State of Missouri.                   evaluation.


                                            A district official stated the district did not monitor district
                                            personnel or the FSMC personnel to ensure they counted
District shall ensure that the Company's
                                            meals accurately or correctly used Accu-Scan and Power
operations are in conformance with the
                                            Lunch. The official stated the district does not have a
District's agreement under the program.
                                            monitoring process or controls in place to verify if the
                                            FSMC is adhering to their contract.



To the maximum extent possible, the
                                            A district official stated the district did not have a
Company shall use in the preparation of
                                            monitoring process or any controls in place to ensure the
meals served to students, commodities
                                            FSMC used donated commodities to the maximum extent
donated to the District by the USDA,
                                            possible.
and shall be responsible therefore.


                                            A district official stated the District pays for the FSMC’s
                                            long distance telephone charges. The official did not
                                            perform analyses to determine if the company charges the
The Company shall furnish its own long      district for expenses that the FSMC itself should incur.
distance telephone service or reimburse     The official does not have a monitoring process or any
District for long distance telephone        controls in place to minimize erroneous charges. The
service used.                               official does not review the FSMC’s invoices for
                                            erroneous charges and pays the FSMC’s invoice, even if
                                            the invoice does not reconcile to the District's meal count.
                                            The official does not question the FSMC’s invoice.




USDA/OIG-A/27010-20-KC                                                                             Page 28
Exhibit E – District Control Weaknesses Over FSMC Contract
                                                                                      Exhibit E – Page 2 of 3


     CONTRACT PROVISIONS                             DISTRICT CONTROL WEAKNESSES
The parties agree that the District shall
be responsible for the collection and
accounting of all funds received in          A district official stated the district only met with the
payment of meal cost by food service.        FSMC if there was a large discrepancy between the district
Furthermore, the District and the            meal counts and the FSMC’s counts. The official stated
Company shall reconcile meal counts on       the district had only met with the FSMC two to three times
a weekly basis to ensure the proper          during the 2002/2003 school year.
determination of the number of meals
served per day.

                                             A district official stated the district does not have a
The Company shall ensure applicable          monitoring process or controls in place to ensure
health certification(s) is maintained and    applicable health certifications were acquired and
that all State and local regulations are     maintained and that the FSMC was meeting all State and
being met by the Company preparing or        local regulations. The official stated the district had never
serving meals at District's facilities.      asked the FSMC to provide proof of current health
                                             certification.


                                             A district official stated the FSMC was trusted to follow
The Company shall obtain licenses or         the requirements for obtaining the licenses and permits
permits necessary for the food service       necessary for food service operation on district premises,
operation on the premises as a direct cost   as stipulated in the contract, but the district did not monitor
of operation.                                the FSMC in any way to verify if, in fact, the FSMC
                                             adhered to the contract.




USDA/OIG-A/27010-20-KC                                                                             Page 29
Exhibit E – District Control Weaknesses Over FSMC Contract
                                                                                   Exhibit E – Page 3 of 3


     CONTRACT PROVISIONS                             DISTRICT CONTROL WEAKNESSES

The Company shall require all
employees to secure, as a condition of
                                             A district official stated the district had never asked the
employment, the applicable medical
                                             FSMC to provide proof that the FSMC employees received
certification as required by State and
                                             a medical examination.
local laws and regulations before
engaging in food service operations.


The Company shall adopt a program
                                             A district official stated the district did not have a
calculated to offer continuous training of
                                             monitoring process or controls in place to ensure that the
employees in food preparations and
                                             FSMC offers continuous training to their employees.
service methods.


The Company shall maintain, as a direct
cost of operation, the following
insurance coverage and will obtain and
deliver to District certificates from its
insurers evidencing said insurance           A district official stated the FSMC was never asked for
coverage. While performing services          proof of insurance and the district did not keep insurance
hereunder, the Company shall maintain        certificates on file.
unemployment insurance and all other
insurance required by Missouri law for
the benefit of employees of the
Company.




USDA/OIG-A/27010-20-KC                                                                          Page 30
Exhibit F – FNS Reply to Official Draft
                                          Exhibit F – Page 1 of 1




USDA/OIG-A/27010-20-KC                                 Page 31
